           Office of Inspector General




December 20, 2004

ANITA J. BIZZOTTO
SENIOR VICE PRESIDENT, CHIEF MARKETING OFFICER

STEPHEN M. KEARNEY
VICE PRESIDENT, PRICING AND CLASSIFICATION

SUBJECT:         Audit Report – Postal Service’s Negotiated Service Agreement With
                 Capital One (Report Number ST-AR-05-001)

This report presents the results of our self-initiated audit of the Postal Service’s
Negotiated Service Agreement (NSA) with Capital One Services, Inc. (Capital One)
(Project Number 04BN003MS000). Our objectives were to determine the extent to
which the NSA with Capital One achieved the intended results of increasing mail
volume, revenue, and cost savings; and to determine whether the Postal Service could
rely on the Postal Service systems used to obtain accurate and timely data on mail
volume and revenue.

The Postal Service could not rely on the Permit System to account for all of Capital
One’s mail volume because a third-party mailer could not provide mail volume data
specific to Capital One. The Office of Inspector General (OIG) withdrew its second
finding regarding use of an independent party to validate mail volume data, and the
associated recommendation, because of information provided by management. The
Postal Service did not establish a dedicated team for the NSA process to ensure
adequate involvement by each Postal Service department required to ensure a
successful NSA.

We made three recommendations to the Postal Service. In recommendation 1, we
recommended the Postal Service include a clause in all future NSAs to require
customers to stipulate that all third-party mailers provide the Postal Service with
customer specific mail volume data. The OIG withdrew its second recommendation. In
recommendation 3, we recommended the Postal Service finalize the draft Handbook for
Negotiated Service Agreements.




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Management disagreed in part with recommendation 1. Specifically, management
agreed they would look for ways to explicitly describe obligations of third parties in
providing mail volume; however, they felt the Postal Service does not need third-party
mailers to provide data that are not relevant to an NSA. As previously stated, the OIG
withdrew recommendation 2. For recommendation 3, management agreed to finalize
the draft Handbook for Negotiated Service Agreements by December 2004.
Management’s comments and our evaluation of these comments are included in the
report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact
Michael L. Thompson, Director, Strategy, Performance and Marketing, or me at
(703) 248-2300.


/s/ John M. Seeba

John M. Seeba
Assistant Inspector General
 for Audit

Attachment

cc: John R. Wargo
    Michael K. Plunkett
    Edmund Wronski
    Pritha N. Mehra
    Steven R. Phelps
Postal Service’s Negotiated                                     ST-AR-05-001
 Service Agreement With Capital One


                                      TABLE OF CONTENTS
 Executive Summary                                                   i

 Part I

 Introduction                                                        1

     Background                                                      1
     Objectives, Scope, and Methodology                              4
     Prior Audit Coverage                                            5

 Part II

 Audit Results                                                       7

     Permit System Does Not Contain Total Data on Mail Volume        7
         Terms of the NSA With Capital One                           7
         The Manual Mail Volume Process                              7
     Recommendation                                                  9
     Management’s Comments                                           9
     Evaluation of Management’s Comments                             9

     Management Controls Need Improvement                          10

     Process for NSA                                               11
         Dedicated NSA Team                                        11
         NSA Policies and Procedures                               11
     Recommendation                                                12
     Management’s Comments                                         12
     Evaluation of Management’s Comments                           12

 Appendix A.     Abbreviations and Acronyms                        13
 Appendix B.     Equation Elements                                 14
 Appendix C.     Prior Audit Reports                               16
 Appendix D.     Management’s Comments                             17
Postal Service’s Negotiated                                                                         ST-AR-05-001
 Service Agreement With Capital One


                                      EXECUTIVE SUMMARY
    Introduction                  The Office of Inspector (OIG) completed a self-initiated audit
                                  of the Postal Service’s negotiated service agreement (NSA)
                                  with Capital One Services, Inc. (Capital One). Our
                                  objectives were to determine the extent to which the NSA
                                  with Capital One achieved the intended results of increasing
                                  mail volume, revenue, and cost savings;1 and to determine
                                  whether the Postal Service could rely on the Postal Service
                                  systems used to obtain accurate and timely data on mail
                                  volume and revenue.

    Results in Brief              The Postal Service could not rely on the Permit System to
                                  account for all of Capital One’s mail volume because a
                                  third-party mailer did not provide mail volume data specific
                                  to Capital One. According to the Postal Rate Commission
                                  (PRC) Opinion and Recommended Decision and terms of
                                  the Capital One agreement, the Postal Service will use the
                                  Permit System to capture mail volume and revenue data.
                                  As a result, the Postal Service had to manually calculate a
                                  portion of Capital One’s mail volume, which may not
                                  accurately account for mail volume data needed to
                                  determine whether Capital One is entitled to a refund.

                                  In addition, Postal Service officials did not establish a
                                  dedicated team throughout the NSA process to ensure
                                  adequate involvement by each Postal Service department
                                  needed to develop the NSA. This condition occurred
                                  because the Postal Service did not have formal policies and
                                  procedures that defined the roles, responsibilities, and
                                  established timelines to process an NSA. As a result,
                                  Postal Service departments may encounter internal delays
                                  and experience a breakdown in communication throughout
                                  the process.

    Summary of                    We made three recommendations to the Postal Service.
    Recommendations               In recommendation 1, we recommended the Postal
                                  Service include a clause in all future NSAs to require
                                  customers to stipulate that all third-party mailers provide
                                  the Postal Service with customer specific mail volume data.
                                  The OIG withdrew recommendation 2 because of
                                  information provided by management. In

1
 Because the NSA with Capital One had not completed its first year, we were unable to determine the extent to
which the intended results were achieved.



                                                         i
Postal Service’s Negotiated                                                        ST-AR-05-001
 Service Agreement With Capital One


                              recommendation 3, we recommended the Postal Service
                              finalize the draft Handbook for Negotiated Service
                              Agreements.

 Summary of                   Management disagreed in part with recommendation 1.
 Management’s                 Specifically, management agreed they would look for ways
 Comments                     to explicitly describe obligations of third parties in providing
                              mail volume; however, they felt the Postal Service does not
                              need third-party mailers to provide data that are not relevant
                              to an NSA. As previously stated, the OIG withdrew
                              recommendation 2. For recommendation 3, management
                              agreed to finalize the draft Handbook for Negotiated Service
                              Agreements by December 2004. Management’s comments,
                              in their entirety, are included in Appendix D of this report.

 Overall Evaluation of        Management’s comments are responsive to
 Management’s                 recommendations 1 and 3. Management’s planned actions
 Comments                     should correct the issues identified in this report. We do not
                              plan to pursue the formal audit resolution process for
                              management’s disagreement in part to recommendation 1.
                              Recommendation 2 was withdrawn.




                                               ii
Postal Service’s Negotiated                                                                             ST-AR-05-001
 Service Agreement With Capital One


                                             INTRODUCTION
 Background                        A negotiated service agreement (NSA) is a contractual
                                   agreement between the Postal Service and customers that
                                   gives pricing incentives in exchange for a shift in customer
                                   behavior that benefits the Postal Service. For example, a
                                   shift in behavior may be a substantial increase in annual
                                   First-Class Mail (FCM) or Standard Mail volume. The
                                   Postal Rate Commission (PRC) reviews and recommends
                                   the proposed NSA, and the Postal Service Governors have
                                   final approval authority.2

                                   Effective September 1, 2003, the Postal Service
                                   implemented its first NSA with Capital One, which is a
                                   three-year experiment. The pricing incentive under the NSA
                                   allows Capital One to receive discounts of 3 to 6 cents per
                                   piece for annual FCM volumes exceeding 1.225 billion
                                   pieces for the next three years.3 Table 1 below shows the
                                   rate schedule outlining the declining volume block ranges4
                                   and incremental discounts.

                                            Table 1. Rate Schedule for the NSA with Capital One.

                                                                                          Incremental
                                             FCM Volume Block Range                        Discounts
                                             1,225,000,000 - 1,275,000,000                  3.0 cents
                                             1,275,000,001 - 1,325,000,000                  3.5 cents
                                             1,325,000,001 - 1,375,000,000                  4.0 cents
                                             1,375,000,001 - 1,450,000,000                  4.5 cents
                                             1,450,000,001 - 1,525,000,000                  5.0 cents
                                             1,525,000,001 - 1,600,000,000                  5.5 cents
                                             1,600,000,001 and above                        6.0 cents
                                            Source: PRC Opinion and Recommended Decision.


                                   In exchange for the discounts, Capital One converted its
                                   systems to use the Address Change Service (ACS) and
                                   forgo the physical return of undeliverable as addressed
                                   (UAA) mailpieces. ACS is an electronic notification system

2
  According to the PRC, the following is required for filing an NSA proposal. The NSA proposal is required to be
reviewed in a public proceeding; the agreed-upon rate and service change will work to the mutual benefit of mailers,
users, and the Postal Service system as a whole; and the negotiated rate-and-service package should be made
available on the same terms to other potential users willing to meet the same conditions of service.
3
  The PRC Opinion and Recommended Decision “Experimental Rate and Service Changes to Implement Negotiated
Service Agreement with Capital One,” Docket Number MC2002-2, May 15, 2003, capped the maximum cumulative
discount available to Capital One over the duration of the agreement at $40.637 million.
4
  Declining volume block rates are a series of declining rates applied to a corresponding sequence of blocks of
mailings of predetermined sizes over a fixed period such as a year.



                                                         1
Postal Service’s Negotiated                                                                      ST-AR-05-001
 Service Agreement With Capital One


                                 that will notify mailers of new addresses and the reason for
                                 the undeliverable mailpiece. As a result, the Postal Service
                                 will not have to sort millions of UAA mailpieces and return
                                 them to Capital One. The NSA with Capital One is also the
                                 first time a separate rate discount has been offered to a
                                 single mailer who agrees to reduce Postal Service costs.

                                 On February 18, 2004, the PRC published its final ruling5 for
                                 filing NSAs. The final ruling included rules for requesting
                                 the following types of NSAs.

                                 •    A “baseline NSA” is a pilot or test case that is not based
                                      on an NSA currently in effect.

                                 •    A “functional equivalent NSA” is an NSA that has been
                                      previously recommended by the PRC and is currently in
                                      effect.

                                 •    A renewal of an NSA previously recommended by the
                                      PRC with existing participants.

                                 •    A modification of an NSA previously recommended by
                                      the PRC.

                                 On July 21, 2004, the Postal Service filed two new NSA
                                 proposals with the PRC, one for Bank One Corporation and
                                 the other for Discover Financial Services, Inc. The Postal
                                 Service expects approval for the NSAs within the next few
                                 months because the new proposals were filed as functional
                                 equivalents to the NSA with Capital One.

    NSA Process                  The NSA with Capital One took approximately 23 months
                                 and consisted of the inception, negotiation, proposal, review
                                 and decision, approval, and implementation phases:

                                 •    Inception Phase. The primary participants were Capital
                                      One and the Postal Service’s Pricing Strategy and
                                      Pricing teams, and Operations. During this phase, the
                                      idea for an NSA proposal was generated and defined.
                                      The inception phase began in October 2001 and
                                      continued through January 2002.


5
 PRC, 39 Code of Federal Regulations, Part 3001, Negotiated Services Agreements, was published in the Federal
Register, Volume 69, Number 32, February 18, 2004.



                                                       2
Postal Service’s Negotiated                                                                             ST-AR-05-001
 Service Agreement With Capital One



                                    •   Negotiation Phase. The primary participants were
                                        Capital One and the Postal Service’s Pricing Strategy,
                                        Finance, the Law Department and the Vice President,
                                        Pricing and Classification. During this phase, the
                                        proposed NSA was further refined by the Postal Service
                                        and Capital One. The negotiation phase began in
                                        January 2002 and continued through July 2002. The
                                        Postal Service’s Law Department drafted the Capital
                                        One agreement.

                                    •   Proposal Phase. The primary participants were Capital
                                        One and the Postal Service’s Pricing Strategy, Finance,
                                        and the Law Departments. During this phase, the Postal
                                        Service approved the proposed NSA with Capital One.
                                        The proposal phase began in July 2002 and continued
                                        through August 2002.

                                    •   Review and Decision Phase. The primary participants
                                        were the PRC, Postal Service’s Pricing Strategy, Capital
                                        One, and several interveners.6 During this phase, the
                                        PRC reviewed the proposed NSA. The Postal Service
                                        and Capital One provided testimony and participated in
                                        hearings before the PRC. The review and decision
                                        phase began in September 2002 and the PRC filed its
                                        opinion and recommended decision on May 15, 2003.

                                    •   Approval Phase. The primary participants were the
                                        Postal Service Governors and the Postal Service Law
                                        Department. During this phase, the PRC sent its opinion
                                        and recommended decision to the Governors for
                                        consideration and approval. The Governors had 30 to
                                        60 days to approve the PRC’s opinion and
                                        recommended decision. The approval phase began in
                                        May 2003, and the Governors approved the NSA with
                                        Capital One on June 3, 2003.

                                    •   Implementation Phase. The primary participants were
                                        Capital One and the Postal Service’s Pricing Strategy
                                        and Operations departments. During this phase, the



6
  Interveners are interested parties, including Postal Service competitors, who participate in the PRC public hearings
to make their views known on the proposed rate changes.



                                                           3
Postal Service’s Negotiated                                                                              ST-AR-05-001
 Service Agreement With Capital One



                                    Postal Service implemented the approved NSA with Capital
                                    One in July 2003. The NSA with Capital One became
                                    effective September 1, 2003.

                                    Throughout the process, Capital One paid its own costs in
                                    participating with the Postal Service in the negotiation and
                                    litigation of the agreement before the PRC, which included
                                    separate counsel, research and documentation, and witness
                                    expenses.

    Postal Service Value of         The Postal Service valued the first seven months7 of the
    the NSA with Capital            NSA with Capital One at $9.8 million. To determine the
    One                             estimated value of the NSA with Capital One, the Postal
                                    Service added the contribution of the new FCM volume and
                                    the cost savings resulting from ACS,8 minus the discount
                                    leakage. Table 2 below shows the equation the Postal
                                    Service used to value the NSA and Appendix B provides a
                                    breakdown of the equation elements.

                                             Table 2. Equation Used by Postal Service to Value the NSA.
                                                                                     September 1 2003
                                                Equation Elements                    to March 31, 2004
                                                Total New Mail Contribution                   $ 4,338,250
                                                Total Discount Leakage                        (1,094,165)
                                                Total ACS Savings                               6,591,741
                                                Total Value of NSA:                           $ 9,835,826
                                             Source: Postal Service Pricing Strategy team.


    Objectives, Scope,              Our overall objective was to determine the extent to which
    and Methodology                 the NSA with Capital One achieved the intended results of
                                    increasing mail volume, revenue, and cost savings. We
                                    also determined whether the Postal Service could rely on
                                    the Postal Service systems used to obtain accurate and
                                    timely data on mail volume and revenue.

                                    To address the first objective, we interviewed Postal Service
                                    officials to identify the process used to value the NSA with
                                    Capital One. Because the NSA with Capital One had not

7
  The first seven months of the NSA with Capital One covers quarter one, September 1, 2003, through December 31,
2003, and quarter two, January 1, 2004, through March 31, 2004.
8
  The Capital One agreement, states the Postal Service will waive ACS fees if Capital One mails more than
750 million pieces of FCM within any year of the agreement. If Capital One does not mail more than 750 million
pieces, Capital One will pay the Postal Service the greater of either (1) all applicable ACS fees for the first year; or
(2) $1,000,000.



                                                           4
Postal Service’s Negotiated                                                                            ST-AR-05-001
 Service Agreement With Capital One


                                   completed its first year, we were unable to determine the
                                   extent to which the intended results were achieved.

                                   We also interviewed Postal Service officials, Capital One
                                   officials, and a third-party mailer to identify the data systems
                                   and processes used to track mail volume, revenue, and cost
                                   savings. We discussed the Permit System9 with the Office
                                   of Inspector General (OIG) Information Systems team. We
                                   also discussed the implementation of PostalOne!10 with
                                   Postal Service officials.

                                   In addition, we interviewed Postal Service officials, Capital
                                   One officials, and the PRC to outline the process involved in
                                   developing, approving, and implementing the NSA with
                                   Capital One. The Postal Service, Capital One, and the PRC
                                   commented this was the first NSA and asked the OIG to
                                   take into consideration that the process is still under
                                   development. We also reviewed the Capital One
                                   agreement11 and the PRC Opinion and Recommended
                                   Decision. We reviewed applicable guidance, regulations,
                                   instructions, and other supporting documentation.

                                   This audit was conducted from March 2004 through
                                   December 2004, in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls, as were considered necessary under the
                                   circumstances. We reviewed established management
                                   controls over the NSA with Capital One as they related to
                                   the audit objectives. Specifically, we reviewed policies and
                                   procedures over the NSA with Capital One to ensure
                                   management’s program objectives were met. We also
                                   discussed our observations and conclusions with
                                   appropriate management officials and included their
                                   comments, where appropriate.

    Prior Audit Coverage           Although we did not find audit reports related specifically to
                                   NSAs, we reviewed two Government Accountability Office
                                   (GAO)12 reports issued in 1996 and 1999 regarding the

9
  The Permit System processes postage statements and maintains advanced deposit trust funds for FCM,
Standard A Mail, Standard B Mail, and business reply mail permits. About 75 percent of United States mail is
processed through the Permit System.
10
   PostalOne! will replace the Permit System and allow bulk mail entry units to enter postage statements, deposits,
and other financial transactions. Mailers will also use PostalOne! to enter postage statements and other information.
11
   The Capital One agreement was signed on September 9, 2002, by the Postal Service’s Senior Vice President,
Chief Marketing Officer and the Senior Vice President, Capital One Services, Inc.
12
   GAO was formerly the General Accounting Office. The name was changed effective July 7, 2004.



                                                          5
Postal Service’s Negotiated                                                     ST-AR-05-001
 Service Agreement With Capital One


                              Postal Service’s business mail acceptance practices. We
                              also reviewed audit reports issued by the OIG related to the
                              Postal Service’s rate case development process, the
                              Address Change Service, PostalOne!, and fiscal year (FY)
                              2002 Financial Installation Audits of business mail entry
                              units. For highlights of these reviews, see Appendix C.




                                              6
Postal Service’s Negotiated                                                                           ST-AR-05-001
 Service Agreement With Capital One


                                            AUDIT RESULTS
 Permit System Does                The Postal Service could not rely on the Permit System13 to
 Not Contain Total                 account for all of Capital One’s mail volume and revenue
 Data on Mail Volume               because a third-party mailer14 did not provide mail volume
                                   data specific to Capital One. According to the PRC Opinion
                                   and Recommended Decision and terms of the Capital One
                                   agreement, the Postal Service will use the Permit System to
                                   capture mail volume and revenue data. As a result, the
                                   Postal Service had to manually calculate a portion of Capital
                                   One’s mail volume, which may not accurately account for
                                   mail volume data needed to determine whether Capital One
                                   is entitled to a refund.

 Terms of the NSA With             The PRC Opinion and Recommended Decision regarding
 Capital One                       the NSA with Capital One states that volume and revenue
                                   data will be captured by the Postal Service’s Permit System.
                                   According to the Capital One agreement, the data in the
                                   Postal Service’s permit accounts are used to determine
                                   whether thresholds have been met. Furthermore, if Capital
                                   One FCM volume exceeds the threshold for a quarter,
                                   Capital One will be eligible to receive a discount on
                                   subsequent FCM volume, sent through the designated
                                   permit accounts.

 The Manual Mail                   The Postal Service uses permit numbers to track Capital
 Volume Process                    One’s mail volume and revenue data in the Permit System.
                                   Capital One and its third-party mailers are required to
                                   complete a postage statement for each mailing. The
                                   postage statement must include the permit number, mail
                                   volume, and revenue data. However, one of the third-party
                                   mailers could not provide the Postal Service with a postage
                                   statement that contains mail volume and revenue data
                                   specific to Capital One. According to the third-party mailer
                                   and Postal Service officials, the third-party mailer’s
                                   processing operation could not provide customer-specific
                                   mail volume data. As a result, the third-party mailer


13
   The Postal Service Permit System User Guide, (updated through version CAN 71-001110, November 8, 2000).
The guide states, “When a mailing house is acting for a client, specifically when a separate customer originated and
prepared the mail, a client’s permit number maybe used “by” an agent who performs the mailing. The Permit System
charges the mailing to the account in the agent permit number field; however, both the agent and the client need
permit numbers.”
14
   Third party mailers are also referred to as agents or mailing houses that perform mail printing and preparation
processing services. These third party mailers mail on behalf of other entities and their services are considered by
the Postal Service to be by-for relationships.



                                                         7
Postal Service’s Negotiated                                                                            ST-AR-05-001
 Service Agreement With Capital One


                                   provides the Postal Service with one postage statement that
                                   contains commingled mail volume and revenue information.

                                   The Postal Service uses an intensive manual process to
                                   calculate the Capital One monthly mail volume data. The
                                   process involves the following steps.

                                        1. Obtain Capital One mail volume data entered into the
                                           Permit System, using permit numbers.

                                        2. Obtain Capital One mail volume data entered into the
                                           Permit System but processed by third-party mailer
                                           that could provide a separate postage statement.

                                        3. Obtain Capital One mail volume data for the
                                           third-party mailer that could not provide a separate
                                           postage statement. This information is obtained by
                                           manually capturing the mail volume data from the job
                                           requests or invoices received from the mailer.

                                        4. Perform a monthly reconciliation of the mail volume
                                           data with Capital One to identify differences in mail
                                           volume data caused by timing issues with data
                                           entry15 and manual calculation of mail volume data
                                           received from third-party mailers that could not
                                           provide a separate postage statement.

                                   Because the Postal Service cannot rely solely on the Permit
                                   System to obtain all mail volume data for Capital One, we
                                   discussed our concerns with Postal Service officials. During
                                   our discussions, we received conflicting information on the
                                   proposed capabilities of PostalOne! According to one group
                                   of Postal Service officials, PostalOne! will replace the Permit
                                   System and alleviate the problem with commingled mail.
                                   However, Postal Service officials involved in implementing
                                   PostalOne! stated the new system will not resolve the
                                   problem because the third party mailer provides one
                                   postage statement with commingled mail.




15
   According to Postal Service officials, there have been instances of delayed entry of postage statement information
into the Permit System. This can occur when the mail entry unit clerk does not enter the mailer’s postage statement
data into the Permit System in a timely manner and can result in differences in mail volume at the beginning and/or
end of each month.



                                                          8
Postal Service’s Negotiated                                                        ST-AR-05-001
 Service Agreement With Capital One




 Recommendation               We recommend the Vice President, Pricing and
                              Classification:

                              1. Include a clause in future negotiated services
                                 agreements to require customers to stipulate that
                                 third-party mailers will provide the Postal Service with
                                 customer specific mail volume data.

 Management’s                 Management disagreed in part with the recommendation.
 Comments                     Management agreed that future contracts could be written to
                              make the obligations of third parties more explicit; however,
                              they believe the Postal Service does not need to require
                              third-party mailers to provide data that are not relevant to an
                              NSA.

                              Management stated they could and would look for ways to
                              explicitly describe the obligations of third parties that are
                              consistent with future NSA terms subject to customer-
                              specific constraints.

 Evaluation of                Management’s comments are responsive to
 Management’s                 recommendation 1. Although management disagreed in
 Comments                     part with the recommendation, they plan to look for ways to
                              explicitly describe obligations of third parties in future NSAs.
                              This action is considered responsive and we do not plan to
                              pursue the formal audit resolution process for
                              management’s disagreement in part to the recommendation.




                                                9
Postal Service’s Negotiated                                                    ST-AR-05-001
 Service Agreement With Capital One




 Management                   This finding was withdrawn because of information provided
 Controls Need                to the OIG by management.
 Improvement

 Recommendation               2. This recommendation was withdrawn.




                                              10
Postal Service’s Negotiated                                                        ST-AR-05-001
 Service Agreement With Capital One




 Process for NSA              Postal Service officials did not establish a dedicated team
                              throughout the NSA process to ensure adequate
                              involvement by each Postal Service department needed to
                              develop the NSA. This condition occurred because the
                              Postal Service did not have formal policies and procedures
                              that defined the roles and responsibilities for Postal Service
                              departments, or established timelines to process an NSA.
                              As a result, Postal Service departments may encounter
                              internal delays and experience a breakdown in
                              communication throughout the process.

 Dedicated NSA Team           Postal Service officials did not initially establish a dedicated
                              NSA team between Postal Service departments, such as
                              Marketing, Finance, Law Department, and Operations. The
                              Pricing Strategy team participated in all phases of the
                              process and was the primary Postal Service department
                              involved in developing the NSA with Capital One.
                              According to a Pricing Strategy official, there was no
                              established process to develop the NSA with Capital One
                              because this was the first of its kind. However, once the
                              proposal for the NSA was finalized, it was considered a rate
                              case and the Postal Service already had an established
                              process for filing a rate case. During a normal rate case,
                              the Law Department is responsible for filing the case with
                              the PRC and the Finance Department has to certify the
                              case before it is proposed.

 NSA Policies and             Without formal policies and procedures, the Postal Service
 Procedures                   did not have defined departmental roles and responsibilities,
                              or establish timelines for completing each phase of the NSA
                              process. To assist in this effort, during negotiations with
                              Capital One, a Pricing Strategy official requested volunteers
                              from Postal Service departments to develop a process to
                              administer NSAs. As a result, the team developed a draft
                              Handbook for Negotiated Service Agreements, dated
                              February 2004. This draft handbook defines departmental
                              roles and responsibilities, and established timelines for each
                              phase of an NSA process. However, as of December 2004,
                              the Postal Service had not finalized the handbook.




                                               11
Postal Service’s Negotiated                                                    ST-AR-05-001
 Service Agreement With Capital One




 Recommendation               We recommend the Vice President, Pricing and
                              Classification:

                              3. Finalize the draft Handbook for Negotiated Service
                                 Agreements.

 Management’s                 Management agreed to finalize the draft Handbook for
 Comments                     Negotiated Service Agreements. Management stated they
                              recognize the need for a formal process for NSA
                              development and implementation. Management also stated
                              they are currently finalizing the Handbook for Negotiated
                              Service Agreements and expect completion by
                              December 2004.

 Evaluation of                Management’s comments are responsive to the
 Management’s                 recommendation. Management’s actions planned should
 Comments                     correct the issues identified in the finding.




                                              12
Postal Service’s Negotiated                                          ST-AR-05-001
 Service Agreement With Capital One



              APPENDIX A. ABBREVIATIONS AND ACRONYMS

FY                                    Fiscal Year
FCM                                   First-Class Mail
OIG                                   Office of Inspector General
NSA                                   Negotiated Service Agreement
PRC                                   Postal Rate Commission
ACS                                   Address Change Service
Capital One                           Capital One Services, Inc.
UAA                                   Undeliverable as Addressed




                                        13
 Postal Service’s Negotiated                                                               ST-AR-05-001
  Service Agreement With Capital One


                          APPENDIX B. EQUATION ELEMENTS

Value of the NSA with Capital One. As stated in the background section of the audit
report, the Postal Service valued the first seven months of the NSA with Capital One
at $9.8 million. To determine the estimated value, the Postal Service added the
contribution of the new FCM volume and the cost savings resulting from ACS, minus
the discount leakage. The tables below show the breakdown of each equation
element.

New Mail Contribution. The pricing incentive under the NSA allows Capital One to
receive a discount of 3 to 6 cents per piece for annual FCM volumes exceeding
1.225 billion pieces for the next three years. Capital One has two types of discounts,
the workshare discounts outlined in the rate schedule and the volume discounts in the
NSA. An average of revenue per mailpiece was estimated to be 29.10 cents. The
Postal Service estimated the average cost per piece to be 12.66 cents, resulting in a
contribution per piece of 16.54 cents. Table 3 below shows the contribution of the
new FCM:

                                  Table 3. Contribution of New First-Class Mail.

                Increased Mail Volume                                        35,885,675
                Capital One Contribution Per Mailpiece                           x .1654
                Total New Contribution                                      $ 5,935,491
                Discount on the Mail Volume                                  (1,597,241)
                Total Contribution of New FCM                               $ 4,338,250
               Source: Postal Service Pricing Strategy team.


Discount Leakage. The Postal Service must also recognize “discount leakage”
which is any mail volume that Capital One would have mailed even in the absence of
the NSA. The discount leakage would occur if the Postal Service gave a discount on
this mail volume. This mail volume would be deducted to obtain the new mail
contribution. Table 4 shows the discount leakage.

                                            Table 4. Discount Leakage.

                                                                         Mailpieces in
                                                                         Millions
                Mail Volume Above Threshold                                     72.44
                Discount Leakage Mail Volume                                   (36.47)
                Incremental Increase in Mail Volume                             35.97
                Discount Leakage 36.47 million X .030 cents discount = $1,094,164

               Source: Postal Service Pricing Strategy team.


ACS Savings. Capital One has agreed to convert its systems to accept ACS
electronic notification in place of physical returns of UAA mail for FCM solicitations.
This reduces the costly physical return of mailpieces, saving the Postal Service



                                                           14
 Postal Service’s Negotiated                                                       ST-AR-05-001
  Service Agreement With Capital One


money. For each Capital One solicitation piece found to be UAA, the Postal Service
will save the difference between the cost of physical returns and the cost of electronic
ACS notifications. Table 5 below shows the calculation for ACS savings.

               Table 5. Savings from Capital One Using Address Change Service.

                                                                          Costs
                                                                           in
                                                                          Cents
                Estimate Cost for Each Manual Return of UAA Mail          53.47
                Estimate Cost for Each Electronic Return of UAA Mail     (33.21)
                Estimated Cost Savings                                    20.26
                32,540,719 ACS transactions X 20.3 cents per piece = $6,592,749
               Source: Postal Service Pricing Strategy team


The Postal Service has estimated an increase in net revenue of $11.1 million in the
test year due to the cost savings associated with Capital One converting to ACS.




                                                              15
Postal Service’s Negotiated                                                                              ST-AR-05-001
 Service Agreement With Capital One


                         APPENDIX C. PRIOR AUDIT REPORTS
  AGENCY             TITLE OF REPORT                                     REPORT HIGHLIGHTS
                       DATE ISSUED
GAO                U.S. Postal Service,            This report was a follow-up to the 1996 report and determined the
                   Changes Made to Improve         status of recommendations. The report stated that the Postal Service
                   Acceptance Controls for         made changes to controls over the acceptance of business mail, which
                   Business Mail, (Report          should help prevent against losses. However, the Postal Service
                   Number GAO/GGD-00-31,           lacked information on how well its controls were working and could not
                   November 9, 1999)               ensure that it was collecting all the revenue due from its business mail
                                                   operations.
GAO                U.S. Postal Service,            This report discussed weaknesses in the Postal Service’s acceptance
                   Stronger Mail Acceptance        system for business bulk mail, including the inadequacy of bulk mail
                   Controls Could Help Prevent     acceptance controls, staffing, and training. The report also stated the
                   Revenue Losses, (Report         system could not identify how much revenue the Postal Service was
                   Number GAO/GGD-09-126,          losing. GAO recommended the Postal Service periodically report
                   June 25, 1996)                  operations of the bulk mail acceptance system and initiatives, as well as
                                                   the progress and effectiveness of related improvements. GAO also
                                                   recommended the Postal Service develop methodologies to determine
                                                   system wide losses caused by accepting improperly prepared mailings.

Postal Service -   Rate Case Development           This was an informational report documenting the internal process of an
OIG                Process (Product Number         omnibus rate case. The report outlined the three primary Postal
                   FT-OT-04-001,                   Service organizations involved in the process, Finance, Marketing, and
                   January 29, 2004)               the Law Department; and the four major rate case development
                                                   phases, which are costing, volume forecasting, roll forward and revenue
                                                   requirement, and pricing and rate design. The report concluded the
                                                   rate case process takes approximately 18 months from development to
                                                   approval, and consists of three parts; a rate case proposal, commission
                                                   proceedings, and rate implementation.

Postal Service -   Address Change Service          This report stated the Postal Service could save $14 million over the
OIG                (Report Number TD-AR-03-        next two years by eliminating unnecessary manual handling of ACS
                   004, March 12, 2003)            mail. Although 80 percent of mail volume was properly processed, we
                                                   estimated that 20 percent was mishandled, resulting in unnecessary
                                                   processing costs of over $20 million.

Postal Service -   FY 2003 Financial               This report presents the results of our financial installation audit of
OIG                Installation Audit – Business   statistically selected business mail entry units for fiscal year 2003. This
                   Mail Entry Units (Report        audit was conducted in support of the audit of the Postal Service’s
                   Number FF-AR-04-256,            financial statements. We recommended management reinforce
                   March 28, 2003)                 procedures for mail acceptance and verification, reviews of Periodicals
                                                   publications, mailers’ qualifications for nonprofit rates, operations at
                                                   convenience deposit points, trust account balances, Permit System
                                                   overrides and access, bypass mailings, and agreements for special
                                                   postage payment systems. Management agreed with our findings and
                                                   recommendations and the actions taken or planned should correct the
                                                   issues identified in the report.

Postal Service -   PostalOne! Phase Two            This report discussed PostalOne! Phase Two Business Customer
OIG                (Product Number DA-AR-03-       Support System and Transportation Management. The objectives of
                   001, October 24, 2002)          the audit were to evaluate management’s corrective actions from the
                                                   PostalOne! Phase One audit; validate the business case; evaluate
                                                   costs, benefits, and risks; and review internal controls. We recognized
                                                   opportunities for the Postal Service to align systems to corporate goals,
                                                   objectives, and policies; to mitigate risks; and to measure and evaluate
                                                   performance and customer satisfaction.




                                                         16
Postal Service’s Negotiated                           ST-AR-05-001
 Service Agreement With Capital One


                  APPENDIX D. MANAGEMENT’S COMMENTS




                                      17
Postal Service’s Negotiated                ST-AR-05-001
 Service Agreement With Capital One




                                      18
Postal Service’s Negotiated                ST-AR-05-001
 Service Agreement With Capital One




                                      19
Postal Service’s Negotiated                ST-AR-05-001
 Service Agreement With Capital One




                                      20
